<html>
<title> - INNOVATIVE PRACTICES TO CREATE JOBS AND REDUCE POLLUTION</title>
<body><pre>[Senate Hearing 112-962]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-962
 
                     INNOVATIVE PRACTICES TO CREATE
                       JOBS AND REDUCE POLLUTION

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON GREEN JOBS
                          AND THE NEW ECONOMY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            October 13, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  




         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         

                               __________
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
 24-965 PDF                  WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                  
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

             Subcommittee on Green Jobs and the New Economy

                   BERNARD SANDERS, Vermont, Chairman
THOMAS R. CARPER, Delaware           JOHN BOOZMAN, Arkansas
JEFF MERKLEY, Oregon                 JEFF SESSIONS, Alabama
BARBARA BOXER, California, (ex       JAMES M. INHOFE, Oklahoma, (ex 
    officio)                             officio)

                            C O N T E N T S

                              ----------                              
                                                                   Page

                            October 13, 2011
                           OPENING STATEMENTS

Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....     1
Boozman, Hon. John U.S. Senator from the State of Arkansas.......     3
Boxer, Hon. Barbara, U.S. Senator from the State of California...     4
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     5
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     7
Merkley, Hon. Jeff, U.S. Senator from the State of Oklahoma......     8

                               WITNESSES

White, Edward, Jr., Vice President of Energy Products, National 
  Grid...........................................................     9
    Prepared statement...........................................    11
    Responses to additional questions from Senator Boxer.........    16
Kempf, Kyle W., Senior Director, Government Affairs, National 
  Small Business Association.....................................    17
    Prepared statement...........................................    20
Schoen, Phil, CEO, GEO-Enterprises...............................    31
    Prepared statement...........................................    33
    Responses to additional questions from Senator Boxer.........    37
Smith, Anne, Senior Vice President, Nera Economic Consulting.....    38
    Prepared statement...........................................    40
Rowlan, Steven, General Manager, Environment, Nucor Corporation..    48
    Prepared statement...........................................    50
    Responses to additional questions from Senator Boxer.........    52


        INNOVATIVE PRACTICES TO CREATE JOBS AND REDUCE POLLUTION

                              ----------                              


                       THURSDAY, October 13, 2011

                               U.S. Senate,
         Committee on Environment and Public Works,
            Subcommittee on Green Jobs and the New Economy,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Bernard Sanders 
chairman of the subcommittee) presiding.
    Present: Senators Sanders, Boozman, Boxer, Inhofe, 
Sessions, Whitehouse, and Merkley.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Good morning and welcome to an important 
hearing sponsored by the Green Jobs Subcommittee. We will begin 
with opening remarks from Members of the Senate on the 
Committee, and then we will go to testimony from panelists, and 
we very much thank our distinguished panelists for being here.
    The issue that we are discussing today is not exactly a 
sexy issue. It is not going to appear on the front pages of 
newspapers all over this Country, but in my view it is a very, 
very important issue. And it is an important issue because it 
addresses at least three major concerns that we have in our 
Country.
    No. 1, obviously all of us are concerned about the 
recession and the significant amount of unemployment that we 
have. This bill creates jobs.
    No. 2, many of us are concerned about the kinds of expenses 
and costs that businesses, homeowners accrue. This concept will 
help make small businesses run their enterprises more cost-
effectively. It will help homeowners save substantial sums of 
money on their electricity and their fuel bills, and do the 
same for municipalities.
    So to the degree that we want to save consumers money, make 
our businesses more competitive, this bill does that as well. 
And for those of us who are concerned about the crisis of 
global warming and cutting greenhouse gas emissions, this 
concept is also very important because it will do just that.
    On-bill financing, which is the subject of discussion 
today, refers to a program run by a utility where customers can 
get a loan to pay for energy efficiency or sustainable energy 
at their home or small business and use the energy savings from 
those measures to pay back the loan over time on their utility 
bill.
    It is a simple and straightforward concept and it presents 
a huge opportunity to cut energy bills, and we will hear some 
testimony as to how that has occurred; an opportunity to create 
jobs, we will hear testimony about that; and also to slash 
greenhouse gas emissions and other pollutants.
    Just consider for a moment the potential for energy 
savings. The National Small Business Association, one of our 
witnesses here today, issued a report finding that if small 
businesses were able to improve energy efficiency by 25 
percent, not an unrealistic goal, we could cut greenhouse gas 
emissions equivalent to 51 coal-fired powerplants and save the 
average small business nearly $5,000 per year on their energy 
bills. For a small business, $5,000 is not an insignificant sum 
of money.
    The White House Middle Class Task Force estimates that 
existing technologies can reduce home energy consumption 40 
percent on average, and I can tell you in Vermont, we do see 
that, which would yield $21 billion annually in energy bill 
savings.
    Both the National Small Business Association and the White 
House Middle Class Task Force identified the need for up-front 
funds to pay for these cost-effective energy projects as a 
major barrier. In other words, all over this Country, small 
businesses, public institutions, homeowners want to make the 
investment, but they don't have the $5,000, $10,000, $15,000 
that they need to save money in the future. That is the 
challenge we are dealing with today.
    If you are a large business or a State or local government, 
you can get access to what is called energy performance 
contracting. That is where a private contractor provides you 
with up-front money for cost-effective energy upgrades and you 
pay back the loan through your energy bill savings. And I think 
many of us are familiar with one of the major examples of that, 
and that took place at the Empire State Building. We have heard 
a lot of discussion about that.
    Johnson Controls, a major corporation, did an energy 
performance retrofit that will save 38 percent on energy 
consumption, $4.4 million annually in energy costs at the 
Empire State Building, meaning the payback for the project is 3 
years. That is just an extraordinary investment, I think we can 
all agree on that.
    These types of saving opportunities exist for small 
businesses and families, too, but at this moment in many cases 
small businesses and families simply cannot get the kind of 
financing that an entity like the Empire State Building is able 
to get.
    So that is where innovative programs like on-bill financing 
come in. On-bill finance lets small businesses and homeowners 
access funds to make energy improvements pay for themselves 
over time. These programs are available to at least some 
customers in 17 States across the Country. And today we will 
hear from National Grid, which operates a successful on-bill 
finance program in the northeast.
    In Vermont, we have led the Nation in energy efficiency, 
although I know my colleague from California occasionally 
disagrees with me on that. And we have actually cut electric 
consumption by 14 percent over the last 10 years compared with 
projected demand.
    I am pleased that our Governor's new energy plan endorses 
on-bill financing as a way to help Vermonters access the funds 
to make our homes and businesses more efficient and move us 
toward more solar and geothermal and sustainable energy. What 
we know in Vermont we know nationwide. We can do more. We 
surely can. And on-bill finance programs can help.
    We know, too, that according to research from the 
University of Massachusetts and the University of California-
Berkeley, investments in energy efficiency and sustainable 
energy create more jobs than investments in fossil fuels. So we 
are talking about a real job-creating machine here.
    And that is why I am announcing today that my office will 
soon be introducing legislation to support utilities that want 
to go forward on on-bill financing for their customers. We have 
17 States that are doing it. I want to see 50 States in this 
Country doing it.
    When you have a program that cuts energy bills, makes small 
businesses more competitive, creates jobs and slashes 
greenhouse gas emissions, this is a win-win-win situation and 
Congress should be supportive of those efforts.
    I look forward to working with all of my colleagues on this 
legislation and I thank all of our witnesses for being here 
today for this important discussion.
    Senator Sanders. I now want to introduce Senator Boozman 
for his remarks.
    Senator.

            OPENING STATEMENT OF HON. JOHN BOOZMAN, 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman. And I am glad 
that we can hold this hearing and really do look forward to the 
testimony. I appreciate all of you all being here. I have had 
the opportunity to read your testimony and it really is very 
helpful.
    With high unemployment and economic hardship hitting many 
families, in fact I think almost all families, I believe 
today's hearing is very timely and it will help us answer a 
number of questions, such as: At what point do regulations 
become counterproductive by driving blue collar jobs, 
manufacturing jobs, energy sector jobs overseas to countries 
with lower standards and more pollution? Are we properly 
analyzing regulations to make sure we count all the costs and 
the benefits? And how can we best support market-driven 
incentives like on-bill financing to increase energy efficiency 
and renewable energy?
    I think today's witnesses will give helpful answers to some 
of these questions from their perspectives. Let me also say 
again good public policy will lead to net job creation, while 
at the same time promoting conservation, clean air and clean 
water.
    Job creation should include, but not be limited, to green 
jobs. Bad policies may create jobs, but they will lead to 
greater losses in other areas. We must consider which policies 
actually work and which policies have severe unintended 
negative consequences.
    I have said before, Congress should not rubber-stamp every 
policy that is labeled green. There are a lot of steps we can 
take to make sure our companies are successful. One of our 
witnesses that we are happy to have, for example, is in the 
steel industry. His company, Nucor, has approximately 1,500 
employees in Arkansas. They have the capacity to recycle 6 
million tons of steel annually in our State. The U.S. steel 
industry has significantly reduced its energy intensity and its 
emissions over the last 20 years, and our domestic industry is 
the cleanest steel industry on the planet in terms of energy 
intensity and emissions.
    We need to make sure industries like this can afford to 
comply with new regulations that could drive up the cost of 
energy and give their overseas competitors an unfair advantage.
    Again, Mr. Chairman, thank you very much for holding this 
very timely hearing.
    Senator Sanders. Thank you very much, Senator Boozman.
    Senator Boxer is the Chair of the full Environment and 
Public Works Committee. We are pleased that she is here with us 
today.
    Senator Boxer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Senator Sanders, thank you so much.
    The title of this hearing is Innovative Practices to Create 
Jobs and Reduce Pollution. And I think it is very important 
because as we expand our economy, we want to make sure we 
continue to make progress on clean air. I have often said if 
you can't breathe, you can't work. And that is a fact. So I 
thank you for this.
    This hearing is focusing on policies to expand the use of 
energy efficiency, such a win-win, and renewable energy 
technologies, which includes financing of these technologies by 
utilities companies that the customers pay back over time on 
their bill.
    What we have happening in California now, Senators, I think 
it is interesting, is the private sector has moved in and they 
do the same thing that your utilities are doing, the private 
sector comes in and they put the solar roof on and then the 
customer saves the money and that pays back the company for the 
capital investment. It is working very well, creating a lot of 
jobs and doing what you want to do, Mr. Chairman. You are 
creating jobs and reducing pollution at the same time.
    So innovative financing can provide incentives to customers 
to improve energy efficiency of their homes and businesses and 
increasing the use of renewables. Expanding the use of these 
technologies will put people to work, including construction 
workers who retrofit structures with insulation and 
weatherization, workers who install and maintain heating and 
air conditioning systems, and people who manufacture energy 
efficient products.
    And since we have a very successful businessman here, when 
I visited my businesses in Silicon Valley and they are high-
growth. They use a lot of energy, they have saved so much money 
from their costs because they have installed a lot of the 
latest energy efficiency technologies. They have moved to all 
the new innovations that are making us, frankly, a leader in 
this area.
    By the way, we have $48 billion a year of exports, clean-
tech exports. It supports, by the way, 1.7 million jobs, which 
is very, very important.
    So again, I think this focus of yours today is so important 
as we work for jobs, jobs, jobs. And also work to protect the 
health of the American people.
    We know that since the Clean Air Act's inception in 1970, 
the U.S. gross domestic product has risen by 207 percent. Now, 
that is the best in the developing world. So not only is clean 
tech a critical job creator, it provides such important health 
benefits that, according to a study that was demanded by 
Congress, we find that if we continue to turn back efforts to 
roll back Clean Air Act protections and keep on moving toward 
those protections, by 2020 the Clean Air Act is projected to 
prevent, listen to this, 230,000 premature deaths; 2.4 million 
asthma attacks; 200,000 heart attacks; 120,000 emergency room 
visits; 17 million lost workdays; and 5.4 million lost school 
days.
    So when we talk about the importance of jobs, let's 
remember that fair regulation that makes sense means that we 
protect the health of the people. We keep them productive. We 
don't have people dying of heart attacks and missing school and 
work. This is a very important benefit that we should keep in 
mind and why this hearing is so critical. Because what we are 
talking about in this hearing is making sure we have expansion 
of clean energy. And it is just a win-win for everybody.
    So I again say to Senator Sanders, I am so pleased that you 
brought us together. I think what you are trying to do is put 
people to work. You are going to keep American families healthy 
and we are going to save a lot of money for the average family 
that gets a chance to take advantage of the kinds of 
weatherizaton programs and alternative energy programs that you 
are seeing in your State and I am seeing in my State.
    And right as we speak, my staff is checking to see who has 
the best record in their State for energy efficiency, and we 
will get back to you on that. We will leave the record open, 
with your permission.
    Is that all right?
    Senator Sanders. Without objection.
    Senator Boxer. Well, thank you.
    [Laughter.]
    Senator Sanders. Senator Jim Inhofe is the Ranking Member 
of the full Committee.
    Jim, thanks for being here.

            OPENING STATEMENT OF HON. JAMES INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman and Senator 
Boozman, for having the hearing today. We have some familiar 
witnesses here, Mr. Rowlan and Dr. Smith, and Phil Schoen.
    Mr. Chairman, you may not be aware of this, I have to 
interrupt you there. In 2003, Mr. Schoen presented me with an 
award for my work in promoting the use of geothermal heat. 
Oklahoma is a leader in the geothermal area.
    Senator Sanders. Jim, we invited him notwithstanding that.
    [Laughter.]
    Senator Inhofe. Well, I know that and I appreciate that. I 
will remember that a year from now, too. That is good.
    [Laughter.]
    Senator Inhofe. In fact, in 2007, I worked with then-
Senator Clinton to pass the Federal Buildings, along with 
Senator Boxer, Energy Conservation Act, a bill that encourages 
use of geothermal. So it is something that is there. It is good 
and we are the leaders out in Oklahoma.
    With the low financing rates dominating the marketplace 
today, on-bill financing is a good tool to encourage investment 
in energy efficiency. Although I don't see the Federal role in 
expanding capital access, I welcome discussions on the topic. 
More pressing at this time, however, is the havoc the EPA is 
wreaking upon our manufacturing sector.
    Whether we are looking at Solyndra, the debacle with that, 
or the EPA train wreck, it is clear that the EPA is waging war 
on affordable energy that is undermining economic growth. 
Ironically, the President himself has now publicly acknowledged 
the connection when he stopped the agency from tightening the 
national ambient air quality standard. Prose on his statement 
could not have been clearer. EPA rules create regulatory 
burdens and uncertainty that stifles job growth.
    Yet, the EPA continues to push regulations that harm the 
economy. The cross-State air pollution rule, the so-called 
utility MACT rules, they are primary examples of that. These 
rules are specifically designed to force companies to abandon 
affordable energy resources like coal.
    Remember, President Obama wants electricity rates to 
skyrocket as he told the San Francisco Chronicle recently, ``If 
somebody wants to build a coal-fired plant, they can, it is 
just that it will bankrupt them.'
    What this President fails to realize is that affordable, 
reliable energy is the lifeblood of a healthy economy and the 
foundation of our global competitiveness. The Maguire Energy 
Institute points out in a recent report that even modest 
electricity price increases for energy-intensive American 
manufacturers depress economic growth and make firms less 
competitive vis-a-vis China, worsening our trade deficit in the 
process.
    This is ominous, given that NERA is projecting that the 
cumulative effect of EPA's rules on electric utilities may 
result in electricity costs increasing as much as 19 percent in 
America's manufacturing heartland. In fact, NERA projects these 
costs could translate into a loss of 1.6 million jobs by the 
end of the decade, even though the so-called green jobs are 
taken into account.
    So in my State of Oklahoma, the effect of the EPA rules is 
already being felt with two powerplants being idled as a result 
of just the EPA's rules.
    So I applaud the efforts of the House of Representatives to 
direct the EPA to move forward in a sensible manner. It is 
unfortunate that we are kind of ignoring that over here on this 
side, the plight of the business community. And you know, this 
isn't unique to Oklahoma. You can go anywhere and they will 
tell you that the regulations are just killing us.
    The Senate leadership is a major obstacle to relief. 
Recently, we learned from the EPA's Inspector General, a 
request that I made some 16 months ago, that the agency 
circumvented its own peer-review process in the rush to issue 
the climate regulation. We are talking about the endangerment 
findings. And I can remember so well in I think it was December 
2009, right before Copenhagen, when we knew that they were 
going to have an endangerment finding.
    And I said when you have this endangerment finding, what 
science will it be based on? And they said it would be on the 
IPCC science, which has been debunked. And now we find out just 
recently this last week from the Inspector General that they 
had, in fact, cooked the science.
    So, just last week, I might add also, the Majority Leader, 
Harry Reid, changed longstanding Senate rules to protect EPA's 
authority to regulate farm dust. Now, with all these 
regulations, all the MACTs, the boiler MACTs, and farm dust, I 
had a news conference in my State of Oklahoma in the far 
southwestern part, southwest of where you and I were shooting 
birds the other day, and a lot of people came. We had some 
people there who had never been west of the Mississippi.
    And so I said, now, see this brown stuff down here? That is 
dirt. Now, see that round green thing? That is cotton. Now, put 
your finger in the air. That is wind. Are there any questions?
    There is no technology that is going to regulate farm dust. 
And this is a problem. I know we are a farm State and people 
are just, it is just, the regulations are killing our farmers.
    So I am glad we are having the hearing. I hope we will get 
to some reasonable response. Green jobs are fine. I love green 
jobs. When the technology is there, we are all for it. In the 
meantime, you have to run this machine called America and we 
need our current available energy.
    Geothermal is doing a wonderful thing. I am real excited 
that we are at the cutting edge of that. But also just recently 
we have been acknowledged as having the largest recoverable 
reserves of coal, oil and gas of any country in the world, and 
that is what is going to keep us going during the time that we 
are working on our technology.
    Thank you, Mr. Chairman.
    Senator Sanders. Thank you.
    Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Mr. Chairman.
    Senator Inhofe. Oh, could I interrupt for a minute? I have 
to apologize. I have a Senate Armed Services meeting, so I 
would like to stay for all of this. I will be coming back. I am 
sorry for the interruption.
    Senator Whitehouse. Thank you, Mr. Chairman, for the 
opportunity to introduce Edward White of National Grid, which 
is the company that provides virtually all of the electricity 
and natural gas service in my home State of Rhode Island. This 
is a company that, dating back to its time as Narragansett 
Electric, has been a real leader in energy conservation efforts 
back in the 1980's.
    I want to say that Narragansett Electric was the first 
company to engage in conservation-based rates. I was a young 
attorney for the Attorney's General Office. And together with 
the business community and the environmental community, we 
agreed on conservation-based rates, demand-side management, 
cogeneration rates, things that were a novelty at the time.
    So I would ask both of my Chairmen, both the Chairman from 
Vermont and the Chairman from California, to recognize that 
Rhode Island has actually shown a lot of leadership in this 
area. I think we may have been first off the mark.
    And that tradition continues with National Grid today 
through their programs like the least-cost procurement program 
which supports cost-effective gas and electric energy 
efficiency; programs where they are cost-justified. And as you 
have mentioned, Mr. Chairman, the on-bill repayment program 
which gets around a sort of capital obstacle with its reliance 
on economics and allows corporations, communities, businesses, 
municipalities and individuals to reap the savings that new 
technologies permit.
    So I am delighted to be here with him. I have to go to the 
floor so I am not going to be here through the whole hearing, 
but let me close by thanking the men and women of National Grid 
for the effort that they have put in the storm that Vermont 
felt so harshly recently, to make sure that power came back 
fairly quickly to Rhode Island.
    So those who were three, 4 days without power, obviously it 
was a very frustrating time, but I think that National Grid and 
their employees worked terribly hard to get people back as 
quickly as they could. We had folks from the Federal Government 
in and they described how National Grid had performed well 
above expectations, well above what the national averages are 
for this, and they really put their heart and soul into trying 
to get people back online as quickly as they could.
    So both for their long tradition of leadership in 
conservation focus in the utility community and for their 
recent work, it is great to be with you, Ed, and thank you for 
being here today.
    Senator Sanders. Thank you, Senator Whitehouse.
    Senator Merkley.

            OPENING STATEMENT OF HON. JEFF MERKLEY, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Merkley. Thank you, Mr. Chair. I am going to pass 
on an opening statement so we can get right on to witnesses.
    Senator Sanders. Now we are going to hear from the 
panelists. We are going to begin with Mr. Edward White, Jr. Mr. 
White serves as the Vice President of Energy Products in the 
Customer Energy Solutions Group at National Grid. He has 
provided his expertise in energy to the National Grid, one of 
the largest and best-known energy companies in the world for 15 
years. Prior to his role as Vice President of Energy Products, 
he led development of a large distributed solar installation 
and served as U.S. lead for the National Grid's Energy 
Management System.
    Mr. White, thanks for being with us.

   STATEMENT OF EDWARD WHITE, JR., VICE PRESIDENT OF ENERGY 
                    PRODUCTS, NATIONAL GRID

    Mr. White. Great. Thank you. And thank you to Senator 
Whitehouse, who I know had to step out.
    Good morning, Chairman Sanders, Chairman Boxer, Ranking 
Members Boozman and Inhofe and Members of the Subcommittee. It 
is an honor to appear before you today on behalf of National 
Grid to discuss our customer energy efficiency program.
    My name is Ed White. I am the Vice President of Energy 
Products for National Grid. One of my key areas of 
responsibility, as the Senator just outlined, is to develop and 
get approved through our State regulators efficiency programs 
to help our customers where they live, work and play.
    I have seen first-hand where energy efficiency programs 
help customers become more competitive, create jobs and reduce 
emissions. We support the Subcommittee's efforts to advance 
energy efficiency.
    National Grid is an international energy delivery company 
based in Waltham, Massachusetts, with other key offices in 
Providence, Rhode Island, Albany, Brooklyn, Buffalo and 
Syracuse, New York. National Grid provides electricity to 
approximately 3.3 million customers in Massachusetts, New York, 
New Hampshire and Rhode Island and manages the electricity 
network for the Long Island Power Authority.
    We are the largest distributor of natural gas in the 
Northeast, and we are one of the largest investor-owned 
utilities in the United States as measured by customer count.
    In these uncertain and difficult economic times, making 
smart investments in energy is of critical importance. Our 
Country and the local communities we serve need job creation, 
energy security and cleaner ways to power our economy. 
Investing and promoting energy efficiency has the potential to 
help address each of those important challenges.
    Studies have shown that energy efficient investments 
typically produce three to four dollars in savings for every 
dollar invested. We have seen that in Vermont. We have seen 
that in California and we have seen that in other States.
    As an example, over the last 3 years, our total savings 
through new energy efficiency investment in Massachusetts is 
expected to save over 1 million megawatt hours. This is as much 
electricity as would be used to power 92,000 average homes for 
a year.
    As our energy efficiency programs grow and our customers' 
desires to participate grow, we need to advance the tools used 
to deploy these programs. These tools come in many forms, 
shapes and sizes, from emerging technologies like LED lighting, 
to advanced financing and payment options like what we are 
talking about here today.
    On-bill financing, or as we call it on-bill repayment, 
provides our customers a way to enjoy energy savings today, but 
pay for those savings over time. It encourages customers to 
make the capital improvements that they otherwise would not 
make, which helps them to create jobs, remain competitive, 
conserve energy and reduce emissions in our communities and in 
our regions.
    Here are just a couple of examples where our on-bill 
repayment program has helped our customers directly. 
Specifically, in Warwick, Rhode Island, National Grid worked on 
a large lighting replacement job with a major hotel. By 
replacing their inefficient lighting fixtures with 1,900 LED 
lamps, the hotel saved over 1 million kilowatt hours per year, 
and that will be for years to come. That translates to 
significant savings that help go to their bottom line.
    In Cranston, Rhode Island, the city was lacking the 
necessary funds, just like a lot of communities around all of 
our territories, to do an efficiency lighting project for their 
School Department. With on-bill repayment, the city is now able 
to pay for the projects from the savings on their electric 
bill.
    On-bill repayment has helped numerous other projects become 
possible across the States we are so proud to serve. From the 
local florist to the grocery store owner, who both replaced 
outdated inefficient lighting, these jobs would not have moved 
forward without our on-bill repayment program.
    On-bill repayment programs help create economically sound 
projects that pay for themselves, put Americans back to work 
and reduce emissions. We welcome the efforts of the 
Subcommittee to evaluate the appropriate Federal involvement 
for energy efficiency programs and respectfully encourage you 
to consider complementary policies that would maximize the 
economic impact of the existing State programs.
    Thank you for your consideration and I look forward to 
questions.
    Thank you.
    [The prepared statement of Mr. White follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
        
    Senator Sanders. Mr. White, thank you for your testimony 
and for what you are doing.
    Our next panelist is Kyle Kempf. Mr. Kempf is the Senior 
Director of Government Affairs for the National Small Business 
Association, serving over 150,000 small businesses. Kyle 
advocates on energy, environmental, regulatory and economic 
development issues on behalf of small businesses. He currently 
administers the National Small Business Association Political 
Action Committee. After graduating from Boston University summa 
cum laude, he served offices in the U.S. Senate, British 
Parliament, and European Parliament prior to joining the 
National Small Business Association.
    Mr. Kempf, thanks for being with us.
    Mr. Kempf. Thank you. And the PAC is mostly dormant, so 
please don't call.
    [Laughter.]

    STATEMENT OF KYLE W. KEMPF, SENIOR DIRECTOR, GOVERNMENT 
          AFFAIRS, NATIONAL SMALL BUSINESS ASSOCIATION

    Mr. Kempf. Good morning, Chairman Sanders, Chairwoman 
Boxer, Ranking Member Boozman and Members of the Committee. 
Thank you for inviting me here today to discuss the benefits of 
innovative practices that have great benefit to small 
businesses, to the U.S. economy, and the environment, on-bill 
financing.
    My name is Kyle Kempf. And Chairman Sanders, I am Senior 
Director of Government Affairs for the National Small Business 
Association, America's oldest small business advocacy 
organization. Since 1937, NSBA has worked in a nonpartisan 
manner to promote policies beneficial to the small business 
community.
    On-bill financing is a collaborative mechanism among 
utilities, contractors and customers aimed at making it as easy 
as possible for small business owners to invest in energy 
efficiency upgrades, alternative energy sources, and to save 
money.
    To be honest, this is the main attraction for most small 
business owners. On-bill financing saves them a lot of money. 
Energy is a very high-overhead expense for many small 
businesses, one for which most have little to no control. In 
fact, many small businesses, particularly those with fewer than 
35 employees in the manufacturing sector, pay 35 percent more 
per unit for their electricity than their larger counterparts.
    Given the situation, one might surmise that small business 
owners have rushed in to invest in energy efficiency upgrades 
or alternative energy production, but this is not the case. 
Only 40 percent of the respondents to NSBA's 2011 energy survey 
reported investing in energy efficiency improvements in the 
last 18 months or plan to do so; and only 16 percent conducted 
an energy audit in the previous 2 years.
    Small business owners obviously are eager to cut costs 
whenever and wherever they can, so what is holding them back? 
When asked why they had not conducted an energy audit, 30 
percent of the respondents cited the cost; 22 percent 
identified a lack of information on service providers or the 
auditing process; and 18 percent said a shortage of time; 40 
percent of the respondents cited cash-flow as the main obstacle 
to making their small business more energy efficient.
    In short, small business owners lack the necessary money, 
time and reliable information to invest in energy efficiency 
upgrades and alternative energy production. On-bill financing 
resolves each of these impediments.
    In 2009, NSBA issued a report, On-Bill Financing: Helping 
Small Businesses Reduce Emissions and Energy Use While 
Improving Profitability, which highlighted how much small 
business owners could save by using on-bill financing programs. 
On-bill financing program administrators report the utility 
bill savings of 15 to 30 percent are highly typical, usually by 
the simple adoption of existing energy efficiency strategies. 
Although energy cost savings will vary greatly from one small 
business to another, the report found that an average small 
business could save $4,932 each year on its energy bills, with 
many saving much more.
    To illustrate, I would like to share some specific examples 
of actual small business owners who used on-bill financing to 
reduce their energy costs. In West Haven, Connecticut, Chick's 
Drive In, a small family owned restaurant known for its hot 
dogs and lobster rolls, used the on-bill financing program at 
United Illuminating to improve its energy efficiency.
    Following the energy audits of an improved U.I. vendor, 
obsolete fluorescent interior lighting was replaced with high-
efficiency lighting, occupancy sensors were installed in work 
areas where there generally was little activity and high-
intensity exterior lights were replaced with more efficient 
pulse-start technology, while motor and evaporator fan controls 
were upgraded. In total, the improvements cost about $32,000, 
although the utility subsidized approximately $15,000.
    The upgrades are expected to provide Chick's with 
remarkable savings of approximately $9,000 per year, which 
means that the loans should be paid off in about 2 years.
    A small grocer in California used the on-bill financing 
program offered by San Diego Gas & Electric to invest about 
$20,000 in improved lighting and refrigeration efficiency. The 
grocer received a rebate of nearly $6,000, leaving him with 
just more than $14,000 to pay back. The estimated annual energy 
costs savings resulting from these improvements were nearly 
$6,000.
    For the 31-month loan term, this result in a customer fixed 
monthly loan payment of $463.73, which should go unnoticed 
given that the grocer is expected to realized over $475 per 
month in monthly energy savings. Following the 31-month payback 
period, this small grocer simply will get to keep these 
savings.
    Firms located in areas that do not offer on-bill financing 
programs are significantly less likely to make these sorts of 
investments. In addition to significant financial savings for 
small business owners, NSBA's on-bill financing report found 
that the environmental outcome of the widespread adoption of 
similar programs would be enormous.
    The report found that small businesses, as a whole, could 
reduce greenhouse gas emissions by 250 million tons each year 
if they improved their energy efficiency by 30 percent. 
Incredibly, this is the equivalent of emissions from 31 coal-
fired powerplants.
    On-bill financing represents an effective way to help small 
businesses afford critical energy upgrades. These improvements 
benefit small business owners' bottom lines, the sizable sector 
of the small business community engaged in energy audits, 
efficiency retrofits, and alternative energy production, and 
the environment.
    Thank you again for the opportunity to appear before you 
today. I welcome any questions.
    [The prepared statement of Mr. Kempf follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Sanders. Thank you very much, Mr. Kempf.
    Mr. Philip Schoen is the founder of GEO-Enterprises, a 
leader in the geothermal industry with more than 30 years of 
industry experience. He currently serves on the Advisory 
Council of the International Ground Source Heat Pump 
Association and sits on the Board of Directors for the 
Geothermal Heat Pump Consortium.
    Mr. Schoen has designed and installed various types of 
ground heat exchangers, including systems used by the 
Department of Defense, U.S. embassy housing, and the 2008 
Olympics in Beijing.
    Mr. Schoen, thanks very much for being with us.

         STATEMENT OF PHIL SCHOEN, CEO, GEO-ENTERPRISES

    Mr. Schoen. I am Phil Schoen, CEO of GEO-Enterprises, an 
Oklahoma-based company that I founded in 1997, which 
specializes in design and application of geothermal heating and 
cooling solutions.
    GEO-Enterprises has 24 employees and our company provides a 
wide range of services, as thermal conductivity testing, 
modeling of heat exchangers, and complete turn-key 
installations for residential and commercial projects.
    I am pleased to participate in today's hearings on behalf 
of the GEO, the Geothermal Exchange Organization, a nonprofit 
trade association representing the U.S. geothermal heat pump 
industry. I serve on the Board of GEO and I have worked in the 
industry for 30 years.
    Before I offer some thoughts about innovative strategies 
that can expand our industry, lower energy costs for consumers 
and reduce emissions, let me briefly describe how our 
technology works. A geothermal heat pump is a 50-State clean 
energy renewable technology that uses solar energy stored 
beneath the Earth's surface to heat and cool residential and 
commercial buildings and provide hot water at a rate 40 percent 
to 70 percent cheaper than conventional heating-cooling 
technologies.
    While conventional furnaces and boilers burn fuel to 
generate heat, geothermal heat pumps use minimal amounts of 
electricity to transfer heat between the Earth and the 
building, allowing for higher efficiencies and more efficient 
than fuel-burning heaters which can burn at efficiencies of 95 
percent, but geothermal heat pumps leverage that by over 400 
percent.
    Geothermal heat pumps use 25 percent to 50 percent less 
electricity than conventional heating and cooling systems. 
According to the Environmental Protection Agency, they can 
reduce consumption and corresponding emissions by 44 percent to 
72 percent as compared to traditional heating and cooling 
equipment.
    Despite this well-documented energy efficiency, our 
industry still is relatively small, with less than 5 percent of 
the market penetration for new construction. And the primary 
barriers to expanding our industry include high initial 
installation costs, lack of consumer awareness, the need for 
more qualified design and installation professionals, and the 
need for builders, developers, realtors and lenders and 
appraisers to value energy savings.
    While these barriers present unique challenges that we must 
address, our No. 1 challenge is the high initial cost, 
primarily due to the installation of our underground loop. One 
strategy that is very promising is on-bill financing, which 
allows residential and commercial energy-efficient projects to 
be financed directly on the utility bill.
    The advantage of this approach is that the up-front costs 
are converted into small monthly payments that is more than 
offset by the monthly energy savings realized by the project. 
Several States, including Illinois and California, have 
initiated on-bill financing programs. Many utilities are 
reluctant to participate, though, because of the concerns of 
default risks and added complexity of administering the 
financing. Some utilities have turned to third-party financing 
programs as a solution, particularly in the residential market.
    By creating a Federal program that would reduce financial 
exposure of utilities through a loan-loss fund, for example, I 
am confident that more utilities would implement on-bill 
financing programs. A Federal loan-loss backstop would offer 
utilities a major incentive that would not be very expensive. 
The default rate of on-bill financing programs is very low, and 
the loan is tied to the utility bill, and not the homeowner, 
and the loan would continue to be paid as long as the building 
is occupied.
    If you are looking for a relatively inexpensive way to 
create jobs, improve energy efficiency to our homes and 
buildings, lower energy costs for consumers, and reduce 
greenhouse emissions, I can think of no better approach than 
encouraging more utility companies to offer on-bill financing 
for installing geothermal heat pumps.
    By tackling the up-front cost, we expect our industry would 
rapidly expand and we would create thousands of new jobs. These 
are U.S.-based jobs in the manufacturing and drilling equipment 
and installation. We estimate that a new job would be created 
for every 18 heat pump system installations. That is a very 
conservative estimate. From my perspective, I would expect 
installations would more than double if we had a robust on-bill 
financing program. This would allow me to grow my work force by 
one-third, from 24 to 32 workers.
    We will also drastically reduce emissions. On an average 
20-year lifespan, the installation of 100,000 units of 
residential geothermal systems can reduce greenhouse gas 
emissions by almost 1.1 million metric tons, the equivalent of 
removing 58,700 cars from our roads or planting more than 
120,000 acres of trees.
    Thank you again for the opportunity to testify in your 
hearing.
    [The prepared statement of Mr. Schoen follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Sanders. Thank you very much, Mr. Schoen.
    Dr. Anne Smith currently serves as Senior Vice President of 
NERA Economic Consulting. She is an economist and a specialist 
in environmental policy. Prior to joining NERA, she served as a 
practice leader in climate and sustainability at Charles River 
Associates; Vice President at Decision Focus, Incorporated; and 
served as economist for the Office of Policy Planning and 
Evaluation at the U.S. Environmental Protection Agency.
    Dr. Smith, thanks for being with us.

 STATEMENT OF ANNE SMITH, SENIOR VICE PRESIDENT, NERA ECONOMIC 
                           CONSULTING

    Ms. Smith. Thank you, Mr. Chairman, Members of the 
Committee. My name is Anne Smith and I am an economist and 
Senior Vice President at NERA Economic Consulting. My testimony 
is my own and does not represent the positions of my employer 
or any of its clients.
    Today, I wish to summarize the results of a study in which 
my colleagues and I evaluated the combined economic impacts of 
four major environmental regulations now affecting the electric 
power sector.
    EPA assesses the cost of these regulations individually, 
but we saw a gap in EPA's analysis because they failed to take 
into account the effects of how these four regulations interact 
when implemented simultaneously. This interaction may create 
cumulative impacts on business decisions that are different 
from the sum of the individual impacts that EPA estimates.
    Also, we saw a need to better understand the interplay 
between so-called green jobs that would result from spending on 
environmental controls, and job losses from higher electricity 
and energy prices that can result from that same spending. We 
assessed the net job impact, taking into account both the 
positive and negative effects of jobs on different sectors of 
the economy.
    The four environmental regulations that we analyzed in 
combination are, one, the final cross-State air pollution rule; 
two, the proposed utility MACT rule; three, the proposed coal 
combustion residuals regulations; and four, the proposed 
cooling water intake regulations.
    Very soon, utility company executives will have to either 
invest large sums of money to install new pollution controls at 
their coal units or retire them. Retirements imply spending, 
too, to build new replacement capacity and increase costs for 
cleaner replacement generation.
    Whether retirements are few or many, total spending will be 
large even using EPA's own technology cost assumptions, and 
electricity rates will have to raise paying for both forms of 
spending and for any fuel cost increases. Most replacement 
capacity is likely to be fired by natural gas, given today's 
realities in markets, technologies and policy, thus total unit 
retirements may put upward pressure on natural gas prices, even 
given the now-recognized abundance of potential domestic shale 
gas supplies.
    Using U.S. Government assumptions, data and models, we 
developed estimates of the likely mix of types of spending in 
the next few years, given the anticipation of all four types of 
regulations combined. We also assessed impacts on electricity 
rates and electricity prices. Then, using a well-established 
macroeconomic model, we assessed the overall impact on the U.S. 
economy of these many simultaneous changes in spending and 
rates.
    And our key finding was that the net impact on jobs will be 
negative. On average, during the period 2012 to 2020, we do 
project at least 55,000 added green jobs. However, we also 
project that the increased costs of compliance with these four 
regulations reduced other jobs in other sectors by at least 
238,000, four times as many. Most of those job losses occur in 
retail and other sectors that have no direct impact from these 
four regulations. The result is a net reduction of 183,000 jobs 
nationwide over that time period.
    We also estimated that the four regulations would result in 
annual compliance costs of $21 billion per year, which includes 
$104 billion in capital spending, most of it for a very large 
number of retrofit controls.
    Nevertheless, we also projected that natural gas prices 
would increase by about 11 percent on average over this period 
due to many coal units being replaced with natural gas-fired 
electricity supplies.
    Given all these costs, nationwide average retail 
electricity prices are projected to increase by about 7 percent 
over the period, with the increase varying considerably by 
region. That is the average, the 7 percent. When billions are 
spent on investments in cleaner energy, somebody has to pay it 
back. When we also account for those repayments, we find these 
regulations cause a greater loss in jobs across the entire 
economy than the boost that they give to green jobs in some 
sectors of the economy.
    Thank you for the opportunity to testify. I would be glad 
to answer any questions you might have.
    [The prepared statement of Ms. Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Sanders. Thank you, Dr. Smith.
    Mr. Steve Rowlan currently serves as the Director of Energy 
and Environment at Nucor Corporation. He joined Nucor almost 20 
years to lend his expertise in engineering to all aspects of 
environmental affairs and energy utilization. Mr. Rowlan sits 
on the Board of Managers for PIZO Technologies North America 
and has chaired both the Steel Manufacturers Association and 
the American Iron and Steel Institute Environment Committees.
    Thanks for being with us, Mr. Rowlan.

STATEMENT OF STEVEN ROWLAN, GENERAL MANAGER, ENVIRONMENT, NUCOR 
                          CORPORATION

    Mr. Rowlan. Thank you, Chairman Sanders and Ranking Member 
Boozman for the invitation to testify today regarding the 
significant impact energy policies and proposed EPA regulations 
have on job creation and electricity costs.
    Nucor is the largest steel producer and recycler in the 
United States. We employ over 20,000 teammates in 23 States. 
The steel industry, like many industries in this Country, was 
significantly impacted by the Great Recession. Steel capacity 
utilization dropped from 90 percent to 36 percent in a matter 
of a few months at the end of 2008.
    Despite how bad the market got, Nucor did not lay off a 
single worker. Economic conditions have improved for the steel 
industry, but the continued weakness in the economy is very 
concerning. On top of this economic uncertainty and 
persistently high unemployment is a rash of new and proposed 
regulations by the EPA, including ozone standards, utility 
MACT, cross-State air pollution rule, and the greenhouse gas 
emissions rules.
    This regulatory uncertainty and the threat of significantly 
increased costs are holding back capital investment and the 
jobs that investment would create. The impact is real. We 
recently received a permit under the new greenhouse gas rules 
for a direct reduced iron facility in Louisiana. This is a $750 
million project that will create 500 construction jobs and 150 
permanent manufacturing jobs. It is a great job-creating 
investment, particularly in this economy. But this project is 
not as large as the $2 billion investment we initially 
intended.
    Due to the uncertainty created by these regulations, we 
made the difficult decision to delay the $2 billion investment, 
also delaying the creation of 2,000 construction jobs and 500 
permanent manufacturing jobs. This is one example, but we 
should also be concerned with the examples we cannot cite.
    The reality is that because of burdensome permitting 
requirements and rising energy costs, increasingly industrial 
projects are no longer even being considered for development in 
the United States. The additional regulations EPA is 
considering will only continue and intensify that trend.
    The other threat these regulations pose is to energy 
prices. Economical and abundant energy supplies are the 
lifeblood of industry. These new and proposed regulations put 
these at risk. Energy must be priced at a level that will allow 
energy-intensive industries to be competitive with 
international producers of their products. Because energy is 
perceived as being cheap, since it costs just pennies per 
kilowatt hour, we fail to understand the full impact energy 
costs have on profitability.
    You will often hear that a proposed regulation will only 
cost a few cents per kilowatt hour. That is a true, but very 
misleading statement. If industry is paying only five cents per 
kilowatt hour, for example, for electricity and the price 
increases by one cent, that is a 20 percent increase in energy 
costs. For homeowners paying approximately 10 cents, that is a 
10 percent increase. These increases, coupled with other 
regulations that will force the closure of coal-fired 
electrical generation facilities will result in lower supply, 
with further upward pressure on prices.
    The impact of these seemingly small increases on industry 
is staggering. At Nucor, we use electric arc furnaces to 
recycle over 20 million tons of scrap metal annually into 
usable steel products. For Nucor, a one cent increase in 
electricity costs translates into a cost increase of more than 
$120 million per year. The question is: Where will that money 
come from?
    And increase like that leaves industry with few good 
options. The steel industry has reduced the energy intensity 
required to produce a ton of steel by 30 percent since 1990. We 
did this to remain competitive in a global market. At the end 
of the day, any energy cost increases stop with us. We do not 
have the luxury of passing these costs along.
    As a large consumer of natural gas, we are also concerned 
that as gas replaces coal, our natural gas costs will increase. 
On top of fuel-switching, the EPA is also attempting to expand 
its regulatory authority to include hydraulic fracking. We risk 
under-developing this important domestic resource by strangling 
it in regulations.
    We have seen in recent weeks the peril of creating green 
energy in defiance of basic market fundamentals. In many mature 
industries like steel, technological innovation and markets are 
driving increased energy efficiency, greater recycling and 
lower emissions. These jobs may not fit the conventional wisdom 
of what constitutes a green job, but they are good-paying and 
hopefully long-lasting blue collar jobs that are using 
innovation to become cleaner, more efficient and reduce 
environmental impact.
    These are the kinds of jobs we need to be creating, not 
eliminating, in pursuit of mandating a green economy on 
industry.
    [The prepared statement of Mr. Rowlan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Sanders. Mr. Rowlan, thanks very much.
    Let me begin with the questioning, and then we will go to 
Senator Boozman and Senator Boxer.
    Let me start with Phil Schoen. Mr. Schoen, last year, I 
held a town meeting in Vermont on geothermal, and I was 
surprised. We had hundreds of people coming out. What you are 
suggesting, if I understand you correctly, is there is real 
potential there and you are just beginning to tap it, and you 
are seeing as a major obstacle the fact that geothermal heat 
pumps are a fairly expensive proposition and people don't have 
the capital to make that investment.
    All right. Answer two questions, if you might. No. 1, what 
do you see the potential of geothermal heat pumps in this 
Country? What kind of significance will it have? And No. 2, 
what role do you see the government playing in helping make 
that happen?
    Mr. Schoen. Thank you for that question. My response is 
that in the lower housing, in the areas of lower housing, our 
technology is more expensive because when we install this heat 
exchanger, which by the way is 100-year life product, it has 
initial first cost. The good news is you can't export drilling 
or excavating.
    Senator Sanders. Let me ask you this. In practical terms, I 
am a homeowner or contemplating a new home in the State of 
Vermont, what is it going to cost me? What are my savings, et 
cetera, roughly?
    Mr. Schoen. In a new home in Vermont, you might expect to 
pay $15,000 to have a system put in in a conventional sense. 
This product would probably cost $27,000, something like that, 
or an additional 50 percent cost increase to put in the heat 
exchanger. The inside machinery is the same, but it is 100-year 
life. And when you look at lower-cost housing, that is people 
with less means to pay for housing, where a dollar they save 
has much bigger impact, they don't have the resources to go to 
some of the conventional routes, and that is the big expansion 
of the marketplace.
    Senator Sanders. You mentioned in your testimony that 
geothermal was a 50-State proposition.
    Mr. Schoen. Yes, sir.
    Senator Sanders. You see the application for geothermal all 
over the Country.
    Mr. Schoen. Yes, sir. We have put in geothermal in Alaska. 
We have put in geothermal in Barbados. And so it spans all the 
areas of this Country and it almost has an application 
everyplace.
    Senator Sanders. And what kind of savings? I know this is 
average.
    Mr. Schoen. An example would be in the State of Arkansas, 
when we did Farm Home Administration homes, we were able to 
achieve $1 a day for the utility costs of heating and cooling a 
home; $1 a day.
    Senator Sanders. So you are saving people $360 a year in 
their heating.
    Mr. Schoen. Yes.
    Senator Sanders. OK. That is not insignificant.
    All right, let me ask either Mr. White or Mr. Kempf, tell 
me what you see the potential of on-bill financing to be if we 
were making capital available to those businesses, 
municipalities, homeowners who wanted to move aggressively in 
energy efficiency or sustainable energy? What do you see the 
potential out there?
    Why don't you start, Mr. White?
    Mr. White. Sure. Great question. One of the things that we 
have seen in the States where we already offer it is customers 
having the ability to move forward with these projects that 
they otherwise wouldn't normally do. So they are worried about 
running their florist shop or their hotel or their small 
business. They just want the ease of implementation.
    So the vendor comes in, offers up the project, shows them 
what their savings could be, and it is as simple as paying a 
line item on the bill.
    Senator Sanders. What might a typical, I am a slow business 
person, I have a shop, what might a typical savings be?
    Mr. White. It is thousands of dollars each year that they 
will save going forward. It is kind of hard to answer the 
question directly because it depends on the size of the 
project. But we have some projects where the payback is less 
than a year or less than 2 years, within that range. So it is 
very much a great proposition for a lot of our small 
businesses.
    Senator Sanders. Mr. Kempf, would you take a shot at that 
question, please?
    Mr. Kempf. One of the benefits also is that a lot of small 
business owners are rightly wary of independent energy 
auditors. And the on-bill financing has the added benefit that 
it is the utility approving contractors for coming in and doing 
it, so they accept the audit more willingly and proceed.
    Senator Sanders. You mentioned, I think, Mr. Kempf in your 
testimony that almost by definition, the contractors are 
themselves small business people.
    Mr. Kempf. Yes, by and large, the entire industry which 
does these sorts of things are small.
    Senator Sanders. So these are people who come in with 
weatherization efforts, with new lighting.
    All right, my last question for Mr. White or Mr. Kempf, 
talk about lighting a little bit. What is the potential that 
you see? Are there savings in transiting to more energy-
efficient lighting?
    Mr. White. Yes, and that is an area where we see the 
technology advancing quite significantly. And a lot of folks 
care about LED lighting. You can get it for your homes, your 
businesses.
    As we have gone in and installed, in the project I 
mentioned with the hotel, their payback is going to be a little 
over a year and their annual cost savings for those 1,900 LED 
bulbs is around $222,000 for annual savings. So think about 
that big hotel and all the savings they are going to get from 
that technology, that lighting technology.
    Senator Sanders. And they are happy with the quality of the 
lighting?
    Mr. White. They are. They are.
    Senator Sanders. OK.
    Senator Boozman.
    Senator Boxer. Thank you.
    Let me thank Senator Boozman for this courtesy. I have a 
meeting about the highway bill, so I wanted to make sure I 
could get there and do this.
    I would like to put into the record this terrific, part of 
this document which is The On-Bill Financing: Helping Small 
Business Reduce Emissions and Energy Use While Improving 
Profitability. This is a document by the National Small 
Business Association echoing everything that you said, Mr. 
Chairman, and everything that you three have said, and 
everybody says they are for small business.
    So I want to put in the executive summary into the record 
without objection, if that is OK, Mr. Chairman.
    Senator Sanders. Without objection.
    [The referenced document was not recieved at the time of 
print.]
    Senator Boxer. OK.
    I was a little taken aback by Ms. Smith's testimony because 
she really didn't address the issue at hand. But Ms. Smith, you 
said you were speaking for yourself, yet you really were 
quoting from a report, were you not? Because you kept saying we 
found, we examined four rules. Is that correct?
    Ms. Smith. I am speaking for myself today, but you are 
quoting co-authors on the report that I collaborated with.
    Senator Boxer. Yes, and here is the report. We have it 
here. And so this is essentially a coal company report and I 
would ask unanimous consent to put in the record the names of 
the companies and how much they contributed to the report that 
you have cited, if I might put that in the record.
    Senator Sanders. Without objection.
    [The referenced document was not recieved at the time of 
print.]
    Senator Boxer. Which is all fine, but everything you said 
and also the gist of Mr. Rowlan's testimony is refuted in this 
report. I would love you to read it. It is a special staff 
report, says a strong EPA protects our health and promotes 
economic growth. And I am going to quote from it in a bit.
    But one thing that, Mr. Rowlan, you didn't talk about which 
is something terrific that has gone on in your business that we 
got from your webpage does fit into this hearing. It is Nucor 
has developed a manufacturing process that increases energy 
efficiency and reduces carbon pollution, and it is very 
exciting. You say that these mills consume 84 percent less 
energy than a conventional mill with a 75 percent reduction in 
greenhouse gases. That is in your Crawfordsville, Indiana and 
Blytheville, Arkansas facilities.
    So I just wanted to thank you, even though you didn't talk 
about that, something that I think we should take note of. It 
is very exciting that you, too, in that you are continuing, 
even though you are opposing new regulations. You are moving to 
energy efficiency. And I think that is an important point.
    Energy efficiency is something that should get us all 
together, whether we demean the EPA or we support the EPA. It 
is dollars and cents, whether you are a Democrat or Republican, 
you save money and that is why the small business people love 
this. And that is why I am so proud of this hearing.
    And I am going to close with a few quotes from this report 
that really totally contradict what Ms. Smith and Mr. Rowlan 
said, and these are all fact-based analyses that you can get 
when you get this.
    And they are also quotes. Here is a great quote. ``Clean 
air, clean water, open spaces, these should once again be the 
birthright of every American,' Richard Nixon, January 22, 1970 
in his State of the Union.
    Christie Todd Whitman and Bill Ruckelshaus, Republicans who 
worked for Republican Administrations at the EPA, they wrote an 
op-ed together and it said, ``It is easy to forget how far we 
have come in 40 years. We should take heart from all this 
progress, and not as some have suggested in Congress, seek to 
tear down the agency that the President and Congress created to 
protect America's health and environment.'
    Gerald Ford said, ``Nothing is more essential to the life 
of every single American than clean air and pure food and safe 
drinking water.'
    And then in the area of job creation and economic growth, I 
have said before, since the Clean Air Act's implementation, we 
have grown faster than any other developed country, 207 
percent.
    And the Clean Air Act is projected to provide $2 trillion 
in annual health benefits by the year 2020. I defy anyone to 
come up with anything better than that.
    And I am going to give you some more quotes of companies. 
OK? Companies that aren't here today: PG&E, CalPine Corp., 
NextEra Energy, Public Service Enterprise Group, National Grid 
is in this, Excelon, Constellation Energy. Austin Energy in a 
letter to the editor of The Wall Street Journal in 2010, ``Our 
company's experience complying with air quality regulations 
demonstrates that regulations can yield important economic 
benefits, including job creation, while maintaining 
reliability.' General Motors said just the other day, July 
2011, ``General Motors Company recognizes the benefit for the 
Country of continuing the historic national program to address 
fuel economy and greenhouse gases that the EPA has begun.'
    It goes on and on. And because my time is running out, I do 
want to give you what the American people say about the EPA. 
And Grant, you found it for me before. Now I have to just take 
a second. Here it is. Here it is. The American people, and by 
the way, this is an old poll. It is a few months old. There is 
a new poll that came out which has even better numbers for the 
EPA from the people of this Country. The Clean Air Act enjoys 
broad support from the American people. The public supports 
stricter limits on air pollution and believes scientific 
experts should be responsible for setting pollution standards.
    And just to back up the numbers, this is a February 2011 
bipartisan poll conducted for the American Lung Association: 69 
percent of likely voters think EPA should update clean air 
standards with stricter limits on air pollution. They don't say 
what Mr. Rowlan said and what Ms. Smith said, or Dr. Smith, 
excuse me, Dr. Smith, that we should walk away from these regs; 
68 percent of the people of this Country feel Congress should 
not stop the EPA from updating Clean Air Act standards, and yet 
that is what we are faced with, Mr. Chairman.
    They have rolled back three to four to five regs over there 
in the House, and they think that is going to gain traction. 
Not only does it hurt job creation and threaten a $48 billion 
export industry of clean tech; not only does it threaten 1.7 
million jobs and future growth.
    And we hear from these folks here who are making money from 
this; 69 percent believe that EPA scientists, not Congress, 
should set pollution standards.
    So all I can say is I am very familiar with California and 
I just will close with this, and I am so sorry to do this to 
you, Mr. Chairman, but you are used to this. The latest report, 
it is a California report, so you could question it, says that 
California uses the least amount of energy per capita of any 
other State in the Nation. And I say that to you, but I do 
believe our climate would lead us to that. I think you do face 
a little bit chillier winters and a little bit less sun. We 
have lots of it there, and more solar energy at this point.
    But I did want to put that into the record, subject to your 
confirmation.
    Senator Sanders. I don't know about that. I don't know if 
we will put that into the record.
    [Laughter.]
    Senator Sanders. But we will continue that discussion.
    Senator Boxer. Thank you. I thank all of our witnesses.
    Senator Sanders. OK. Thank you very much.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman. And I agree. I 
think conservation is something that we all agree is very, very 
important and it is good for business. One of the low-hanging 
fruits out there is energy-efficient motors, getting rid of 
some of these old motors; giving incentives to do that; and 
certainly that is good for your business, Mr. Rowlan, and many 
other businesses.
    On on-bill financing, Mr. White, is there a limit to, if 
Mr. Rowlan's company wanted to get efficient, is there a limit 
to the amount of money, how big can the company be to 
participate? How big can the loan be? Is there a limit? Or how 
do you do that?
    Mr. White. Yes, so specifically to your question or as it 
relates to our small business program, typically we would give 
a 70 percent incentive and then the financing would be on the 
rest of the 30 percent. So it is a proportion of the overall 
project costs.
    Senator Boozman. Up to how many dollars?
    Mr. White. I don't have the answer to that question right 
now. What we see in our different customer types is some of 
those customers will select, Mr. Rowlan's company would 
actually work with an ESCO and get better, more attractive 
holistic projects which it sounds like from their website they 
are already doing.
    So we don't have a specific cap that I am aware of, but our 
programs are more focused on small businesses and 
municipalities.
    Senator Boozman. No, I think it is a great program, a great 
idea, and it seems to be very successful.
    Are you allowed to add the administrative costs to the 
program?
    Mr. White. Yes. Our energy efficiency programs are State 
regulated, and the administrative costs associated with those 
projects are all included in our budgets.
    Senator Boozman. Very good.
    I appreciate your testimony, Mr. Kempf. I was surprised, 
really in both of yours, well, all three, that the payback in 
some cases was pretty significant and pretty quick. So I think 
it is a great program and I think it is something that we need 
to support. I look forward to working to strengthen that.
    Mr. White, you have heard the concern from Mr. Rowlan and 
Dr. Smith. Are you concerned about the impact of the four 
things? How much does an entity, a lot of natural gas, are you 
concerned about the increase in electricity cost? Or better 
yet, are your customers concerned if natural gas does go up 11 
percent as predicted?
    Mr. White. Yes, so what I would say is interacting with our 
customers, which is the part of the National Grid that I work 
with, our customer is always concerned with the rising cost of 
energy. And the solutions or the tools that we provide are the 
energy efficiency programs. I can't really speak to the 
specific items that were addressed by the other panelists.
    Senator Boozman. But you have discussed that in meetings 
and things. Give us, I mean, the reality is if all four of 
those go into effect, your costs are going to go up 
significantly. And what percentage are in the on-bill financing 
program? What percentage of your customers are on the on-bill 
financing program? Very small, I would suspect.
    Mr. White. Well, but it is a growing percentage.
    Senator Boozman. But the reality is, if the four did go 
into effect, the vast majority of your customers would be 
impacted by an increase in their utility rates.
    Mr. White. Yes, I am not familiar with the impacts or the 
measurements that were discussed here. What I can speak to is 
sort of the customer facing or customer interaction programs 
that we have with our energy efficiency programs. The impact of 
proposed legislation is not really my area of responsibility.
    Senator Boozman. OK. But you do deal with customers.
    Mr. White. Yes.
    Senator Boozman. And if your customers' electricity bill 
went up significantly, your businesses and your individuals, 
the single moms, and then it was realized that that was due to 
these four things going into effect, I doubt that the polling 
would be very good as far as support for the four things that 
were put in place.
    Mr. White. Yes, again, I can't speak to the polling or the 
impact of the four things that were mentioned.
    Senator Boozman. But in dealing with customers, they would 
be concerned about the increase.
    Mr. White. Yes.
    Senator Boozman. And I don't want to beat a dead horse. You 
understand what I am saying.
    Mr. White. I do. Yes.
    Senator Boozman. And these are big things. They really are, 
I know in Arkansas. One of my frustrations is we are losing our 
manufacturing and it is a huge deal. And we have to as a Nation 
address how do we do that. But one of the bases of that is 
certainly reasonably priced energy. And so we do have to figure 
this thing out where we are able to provide reasonably priced 
energy, but also to meet the environmental needs that we need 
to do.
    So thank you, Mr. Chairman. I apologize. I have another 
meeting with a major manufacturer that is scheduled to come up, 
this meeting with our entire delegation. They are in a 
situation of needing some encouragement, and so I am going to 
sneak out. Senator Sessions is going to be around for a while.
    Thank you very much.
    Senator Sanders. Thank you, Senator Boozman.
    Senator Sessions.
    Senator Sessions. Thank you.
    Let me just say right up front, I think we have, I don't 
think, we do have a difference of opinion about green jobs. We 
just do. We have had an world experiment in Spain. They have 
been one of the most ambitious countries in the world in trying 
to create jobs by creating a green energy program. For over a 
decade, they pursued the policy through green energy. But 
recent studies have shown that Spain spent over 500,000 euros, 
$680,000 dollars to create each green job.
    Those studies also indicate that Spain lost 2.2 jobs for 
every green job created. This is because Spain's focus on green 
energy resulted in substantially higher electricity prices that 
affected the cost of production.
    And Nucor Steel, which has plants in Alabama, they have to 
compete worldwide. If they have lower energy costs, they are 
more competitive and can hire more people. If their energy 
costs are higher, they are less competitive and they can be 
less successful and hire less people.
    In fact, Spain has acknowledged their error and have backed 
away from much of what they have been doing.
    We also have this idea that somehow we can create jobs by 
reversing the law of markets. Solyndra, $530 million, we are 
not going to have any more jobs there, it looks like, filed for 
bankruptcy. You have the plant in Massachusetts that also went 
belly up that have huge State support, not Federal support; 
Boston, the Evergreen Solar, $58 million in subsidies and tax 
breaks and it declared bankruptcy in August of this year.
    So Dr. Smith, you have looked at this in the numbers. And 
we have just got to be honest with each other and try to figure 
out what the right policy is. I certainly agree with the 
Chairman and Senator Boozman about conservation, effective 
techniques and machinery that will help us use less energy. I 
think that is a win-win when it can be paid for and it makes 
sense.
    So let me ask you, Dr. Smith, your studies show staggering 
levels of job losses due to the EPA's projected slate of 
utility coal regulations. A review of your report indicates you 
actually make several conservative assumptions; that you tend 
to underestimate the actual losses that might occur. Your 
analysis, for example, did not take into account increased 
costs from reduced electricity reliability.
    Is it fair to say that the total cost in job losses from 
the four EPA rules analyzed in your report could actually be 
greater than you projected?
    Ms. Smith. They could be greater. What I produced is an 
estimate of the average net loss. And within certain sectors, 
there is an increase. In other sectors, there is a very large 
decrease, but that is net within the sector as well.
    So if we have a very large decrease, as we do in the retail 
sector, a surprising place to find the job loss perhaps for 
some, there could be even larger losses in there along with 
some positive increases in the retail sector that the analysis 
doesn't pick up.
    So yes, the actual job losses could be larger. The actual 
net gains could be larger. I think the important point is that 
when you look at the balance between gains and losses across 
the whole economy, it always turns out to look negative, 
although not always in every sector.
    Senator Sessions. What kinds of jobs are most likely to be 
lost in your projections?
    Ms. Smith. Well, the vast majority of the jobs lost, as I 
said, are in the retail sector and a great number of other 
sectors that support the economy and the supply chain 
generally. They all suffer as the reduction in economic 
activity occurs in their overall demand.
    So none of them are among the set that are directly 
affected by the rules. At the same time, it is true that the 
mining sector does face some negative losses. On the other 
hand, the gas sector goes positive because of the increased 
demand for gas. The sectors where we see the positive jobs are 
construction and machinery manufacturing, as you would expect 
from a large program of spending on environmental controls or 
building new powerplants.
    Senator Sessions. Which would be short term.
    Ms. Smith. But the negatives are not in the energy sector 
entirely. The vast majority are across the whole economy.
    Senator Sessions. And what kind? Manufacturing?
    Ms. Smith. Manufacturing, except for those parts of the 
manufacturing that are supplying the equipment to build the 
powerplants for the environmental controls.
    Senator Sessions. Because the energy costs can adversely 
affect manufacturing?
    Ms. Smith. They certainly do. And we see actually a 
reduction in demand for electricity in the policy scenario, 
compared to not having those policies being implemented. And 
that is from the manufacturing being reduced overall across the 
economy.
    Senator Sessions. Mr. Rowlan, with regard to a steel 
company like Nucor, would you explain to us how energy prices 
can impact your viability, your growth, and your job and hiring 
policies?
    Mr. Rowlan. Yes, well, that was in my testimony there. Just 
a simple one cent increase per kilowatt hour for us is a cost 
well in excess of $120 million a year. And really, if you sit 
and look at some of the things that have been said, that $120 
million has to come from someplace because we can't just 
increase the price of the commodity that we are selling because 
we are competing internationally.
    So the projects like the good Senator referenced, which is 
the Calstrip project which was energy efficient, which is 
research we put money into, there is $120-plus million a year, 
we can't put money into that. We are happy to pursue energy 
efficiency projects. We pursue them, and that is how we have 
driven our numbers down and that is how we have become 
competitive.
    The irony in this is that we say raise prices and somehow 
we are going to create jobs, or raise taxes and we will create 
jobs. You know, you raise prices, people buy less. That is what 
happens. And you don't do that. It goes exactly the opposite 
direction. It flies in the face of reality.
    Senator Sessions. I know the Chairman and I agreed with 
your CEO's views about the China currency, and you give our 
foreign competitors an additional advantage. You have wages. 
You have currency. Now with China a major steel producer, and 
then if you give an energy advantage, I think that you would 
agree that would be further damage to the competitiveness.
    Mr. Rowlan. Yes, currency is a big issue. You know, these 
things manifest themselves in a lot of ways. I heard that the 
energy consumption in California, I think, was the lowest per 
capita. Well, if industry left and you were dividing all of 
that energy being gone now, you basically left the denominator 
where it was at. You are going to see that happen. If industry 
leaves, the energy consumption per capita in that State will go 
down significantly. That would be something I would expect to 
see predicted by Dr. Smith.
    Senator Sessions. Thank you, Mr. Chairman.
    We disagree on some things here, but the Chairman is 
sincerely committed to making us a healthy and more viable 
place, and I am, too. And let's keep working.
    Senator Sanders. Yes, we will. Thank you very much, Senator 
Sessions.
    It appears that some members of the panel were coming from 
different directions than other members, maybe some confusion 
as to what the topic of discussion was today. I didn't hear Dr. 
Smith or Mr. Rowlan talk about on-bill financing, which is in 
fact what the subject of this panel was today.
    But I would hope, Senator Sessions, and all members of the 
panel, that we pursue this issue of on-bill financing. I know 
you missed the first part of the meeting, Jeff, where we think 
we have real potential to provide capital to small businesses, 
municipalities, homeowners to help them make the innovations 
and the efficiencies that they need to substantially lower 
their energy bills and cut pollution and greenhouse gas 
emissions.
    And we have heard testimony that in some cases, the payback 
could be a year or two. And yet we are sitting on a situation 
where millions of homeowners don't have that initial $10,000, 
$20,000 to make the changes.
    So I look forward to working with you to see how we can 
have the government play a positive role in working with 
utilities around the Country, small businesses, homeowners, to 
get that capital available, to expedite the process.
    So with that, yes?
    Senator Sessions. I recently had to replace an air 
conditioning unit and I found it difficult to, even with the 
requirements we have on energy efficiency, it was more 
difficult than I imagined to figure out what the best payback 
would be; what the best investment would be. And I felt like 
that if we are going to have regulations to do this, somehow it 
needs to be a little clearer still.
    Senator Sanders. Well, I think that is exactly what Mr. 
White and others have been talking about. And my guess is that, 
Mr. White, you are helping businesses put in new heating and 
cooling systems. Yes?
    Mr. White. Yes, that is correct. So we are fortunate to 
have programs in four States up in the Northeast, and we help 
customers, both residential customers and commercial customers, 
and kind of walk them through the process so they can have the 
ability to make informed decisions, because it can get 
confusing. There is no doubt about that.
    Senator Sessions. I believe we can do better, and I thank 
you for raising that issue. I do believe that is a win-win.
    Senator Sanders. Yes, it is.
    Senator Sessions. If you can make the changes in your 
heating and cooling and other energy uses that will likely pay 
for themselves over a period of years. It is a win-win for us, 
I think.
    Senator Sanders. So let's work on that together, and thank 
you.
    And I thank all the panelists for being here.
    Oh, Senator Whitehouse, didn't see him.
    Senator Whitehouse.
    Senator Whitehouse. I snuck back in. We had a Judiciary 
markup, but I did want to return, and I won't hold the hearing 
long, but I would love to ask Mr. White what the forecast is 
for the on-bill financing and what specifically we can do to 
help National Grid and other companies who will be following 
your lead to take advantage of this mechanism.
    Is it access to capital? Is it notice to ratepayers? What 
are the hold-backs that have kept this from spreading further? 
And how are you going to work your way through them? And what 
do you think the ultimate reach of the program should be?
    Mr. White. Yes, great question and thank you for that.
    And one of the things that I would like to say is Rhode 
Island specifically is increasing the amount of energy 
efficiency programs they are making available to customers, and 
very much competing with Vermont and California and 
Massachusetts and others. So I respectfully add that to the 
record, which is great.
    Senator Whitehouse. Take that, Vermont.
    [Laughter.]
    Mr. White. What excites me the most about the opportunity 
to work with enhancing some of the solutions on on-bill 
financing is the fact that in some States there is reluctance 
to move forward for a whole host of issues. So to the degree 
that we can actually come up with something both federally that 
complements the State programs, I think is going to be a win-
win for everyone.
    I don't know specifically what the mechanism will or should 
be. There are a lot smarter people out there that can figure 
that out with us all. But I think from a customer's 
perspective, which was one of the questions I received earlier, 
on-bill repayment, on-bill financing is just another way. It is 
another tool to help enhance the use of these programs. And I 
look forward to working with the Committee and all those 
involved.
    Senator Whitehouse. Are you using your own capital to fund 
it, as well as third-party capital?
    Mr. White. Yes. It is a combination of both. So we actually 
have some requirements at some of our State programs to go out 
and find outside capital, which have proved to be a challenge 
during these economic times to get capital at the competitive 
rates that are needed.
    So in some cases, we are using the system benefit charge 
moneys that we collect in offering the on-bill financing to 
those customers, and our default rates have been very low, 
which has been very encouraging.
    Senator Whitehouse. As low as zero percent in certain 
customer classes. Correct?
    Mr. White. Well, zero percent for the financing, but the 
default rate is also very low, 2 percent, 1 percent in some 
areas. So it has been a very useful tool, very useful 
mechanism.
    Senator Whitehouse. Very good.
    Thank you, Chairman. It has been a great hearing.
    Senator Sanders. OK. Thank you all very much for being 
here. I appreciate it.
    The meeting is now adjourned.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
